ci
■&

IN THE SUPREME COURT OF THE UNTED STATES
supreme Court, U S~
FILED

DEC. 09 2019
CARLON D. MCGINN - PETITIONER

OFFICE of TUP r, Cfr

vs.
SHANNON MEYERS (WARDEN) - RESPONDENT

ON PETITIONER FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF THE STATE OF KANSAS

Carlon D. McGinn #62252
C/O: T arising Correctional Facility
P.O. Box 2
Lansing, Kansas
66043

RECEIVED
FEB 2 h 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

RECEIVED
RECi:jM®2i 2021
DEC 2
OFFICE OF THE CLERK
SUPREME COURT. U.S.

q5pctlursk

QUESTION PRESENTED
Petitioner's 'OUT OF STATE' crime 'IS NOT' Defined under Kansas State Statutes and used to Enhance
His Sentence based on the Determinations of a Judge not a Jury. Whether the subsection-specific definition
of "PERSON FELONY" in Kansas Statutes Annotated 21-6810, and Kansas Statutes Annotated

-bkM

which applies in the limited context of a Prior criminal Conviction for Criminal History Determination is
unconstitutionally vague.

TABLE OF CONTENTS
1
QUESTION PRESENTED
1
PETITIONER FOR WRIT OF CERTIORARI
1
OPINIONS BELOW
1
STATEMENT OF JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
3
STATEMENT OF THE CASE
4
REASON FOR GRANTING THE WRIT
, specifically directs the State Court Trial judge, make Finding of
The Statute of the State of Kansas
additional facts concerning (LEMENTS) or prior offenses, which violate the holding of this Court in
Apprendi v. New jersey, 530 U.S. 466

, in Violation of the Petitioners Sixth and Fourteenth Amendment

Rights that those facts be determined by a jury.
29
CONCLUSION
APPENDIX A APPENDIX B APPENDIX C APPENDIX D-

McGinn v. State, 2011 Kan. App. Unpub. LEXIS 733 (2011)
McGinn v. State, 2012 Kan. LEXIS 186 (2012)
State v. McGinn, 2016 Kan. App. Unpub. LEXIS 141 (2016)
State v. McGinn, 2018 Kan. App. Unpub. LEXIS 551 2018)

APPENDIX E - State v. McGinn, Kansas Sup. Court -

Denied Discreationary Review (Sept. 11,2019)

APPENDIX F - Kan. Stat. Ann. § 21-4710
APPENDIX G - Kan. Stat. Ann. § 21-6810
APPENDIX H - Kan. Stat. Ann. § 21-4711
APPENDIX I - Kan. Stat. Ann. § 21-6811
APPENDIX J - Colo. Rev. Stat. § 18-3-206
APPENDIX K - Appelle (State of Kansas) - Brief
APPENDIX L - Kansas Guidelines Grid (2 pages)
APPENDIX M -

Office of Public Defender (Letter) (Dec. 18,2006)

TABLE OF AUTHORITIES
Alleyne v. United State, 570 U.S. 99

4

Apprendi v. New Jersey, 530 U.S. 466

2

Blakely v. Washington, 542 U.S. 296

12

Chambers v. United States, 555 U.S. 122

12

Clemons v. Mississippi, 494 U.S. 738

22

Collins v. Kentucky, 234 U.S. 634

21

Connally v. General Constr. Co., 269 U.S. 385

20

Cunningham v. California, 549 U.S. 270

26

Descampus v. United States, 570 U.S. 254

15

Ewing v. California, 538 U.S. 11

10

Gall v. United States, 552 U.S. 38

26

Gamble v. United States, 139 S.Ct. 1960

9

Gordon v. Cline, 772 Fed. Appx. 712

10

Herrera v. Collins, 506 U.S. 390

22

Hutto v. Davis, 454 U.S. 370

25

In Re Winship, 397 U.S. 358

12

Johnson v. United States, 135 S.Ct. 2551

12

Jones, v. United States, 526 U.S. 227

7

Kolender v. Lawson, 461 U.S. 352

21

Mathis v. United States, 136 S.Ct. 2243

6

Mullany v. Wilbur, 421 U.S. 684

12

Murray v. Giarratano, 492 U.S. 1

22

Patterson v. New York, 432 U.S. 197

12

Ring v. Arizona, 536 U.S. 584

5

Schriro v. Summerlin, 542 U.S. 348

12

State v. Buell, 307 Kan. 604

8

Sessions v. Dimaya, 138 S.Ct. 1204

12

Smith v. Murraiy, 477 U.S. 527

13

State v. Dickey, 301 Kan. 1018

2

State v. Dwerlkotte, 2018 Kan. App. Unpub. LEXIS 685

14

State v. Durby, 309 Kan. 1229

24

State v. Keel, 302 Kan. 560

24

State v. McGinn, 2018 Kan. App. Unpub. LEXIS 55

6

State v. Murdock, 299 Kan. 312

15

State v. Newton, 309 Kan.

24

State v. Thomas, 307 Kan. 733

20

State v. Williams, 291 Kan. 554

16

State v. Vasquez, 52 Kan. App. 2d 708

18

State v. Vandervort, 276 Kan. 179

24

State v. Weaver, 442 P.3d 1044

24

Taylor v. United States, 495 U.S. 575

10

United States v. L. Cohen Grocery Co. 255 U.S. 81

21

United States v. Davis, 903 F.3d 483

8

United States v. Davis, 139 S.Ct. 2319

8

United States v. Tucker, 404 U.S. 443

18

United States v. Hudson, 11 U.S. 32

21

United States v. Reese, 92 U.S. 214

21

Verge v. State, 50 Kan. App. 2d 591

12

Yearer v. United States, 557 U.S. 110

21

Walton v. Arizons, 497 U.S. 639

22

CONSTITUTION AND STATUTES

U.S. Const. Amend. V
U.S. Const. Amend. VI
U.S. Const. Amend. VIE
U.S. Const. Amend. XIV
U.S. Const. Amend.
Colo. Rev. Stat. § 18-3-206
Kan. Stat. Ann. § 21-4710
Kan. Stat. Ann. § 21-4711
Kan. Stat. Ann. § 21-6810
Kan. Stat. Ann. § 21-6811
28 U.S.C. § 2254

OTHER AUTHORITIES
Blackstone Commentaries, *16 - *19 (1796)

25

Sources of Our Liberties (Richard L. Perry & John C. Cooper eds., 1959)

25

KANSAS - (SENATE BILL 18 (2019)

17

OPINIONS BELOW
The opinion of Petitioners Court of Appeals of kansas filed September 16, 2011
- is Unpublished - McGinn v. State, 2011 Kan. App. Unpub. LEXIS 733 (APPENDIX A)
The opinion of Petitioners Supreme court of Kansas filed March 8, 2012
- is Unpublished - McGinn v. State, 2012 Kan. LEXIS 186 (APPENDIX B)
The opinion of Petitioners Court of Appeals of kansas filed February 26, 2016
- is Unpublished - State v. McGinn, 206 Kan. App. Unpub. LEXIS 141 (APPENDIX C)
The opinion of Petitioners Court of Appeals of kansas filed July 20, 2018
- is Unpublished - State v. McGinn, 2018 Kan. App. Unpub. LEXIS 551 (APPENDIX D)
The opinion of Petitioners Supreme court of Kansas filed September 11, 2019
- is Unpublished - McGinn v. State, 2019 Kan. App. Unpub. LEXIS

(APPENDIX E)

STATEMENT OF JURISDICTION
The Kansas Supreme Court issued its order denying petitioners Petition for review on September 11, 2019
(APPENDIX E). The Court has Jurisdiction under 28 U.S.C. § 1257 (a).
NOTE - DUE TO COVID 19
issues, The Court failed notify the petition in a Timely manner to make corrections (AFTER) he resubmitted
his petition, and the Clerk Issued a march 3rd, 2021 Letter providing Petitioner the opportunity to make
Corrections. COVED 19 created the Confusion in the Resubmission of the Corrections. The Kansas
Spreme Court Administrative Order 2020-PR-113 Extended Deadlines Due to Covid 19.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The Fifth Amendment to the United States Constitution, made applicable to the States by the Fourteenth
Amendment, provides in relevant part: "No person shall... be subject for the same offence to be twice put
in jeopardy of life or limb." - U.S. Const. Amend. V

The Sixth Amendment to the Constitution provides in relevant part: "In all criminal prosecutions, the
accused shall enjoy the right to a speedy and public trial, by an impartial jury..." - U.S. Const. Amend. VI

The Eighth Amendment to the Constitution provides in relevant part: "Excessive bail shall not be required,
nor excessive fines imposed, nor Cruel and unusual punishments inflicted." - U.S; Const. Amend. Vill

The Fourteenth Amendment to the United States Constitution provides in relevant part: "[N]or shall any
state deprive any person of life, liberty, or property, without due process of law." - U.S. Const. Amend. XIV

Kansas Statutes Annotated-K.S.A. 2003 Supp. 21-4710( APPENDIX F)
Kansas Statutes Annotated-K.S.A. 2017 Supp. 21-6810 - (APPENDIX G)

Kansas Statutes Annotated-K.S.A. 2003 Supp. 21-471(1 (APPENDIX H)
Kansas Statutes Annotated-K.S.A. 2017 Supp. 21-6811

- (APPENDIX I)

Colorado Revised Statute (C.R.S.) § 18-3-206 - (APPENDIX J)

STATEMENT OF ThE CASE
Carlon D. McGinn appeals the district court's decision to deny his motion to correct an illegal sentence.
McGinn argues the sentencing court erred in classifying his prior Colorado conviction for menacing, as
defined in Colo. Rev. Stat. § 18-3-206 (2000), as a person Felony in (KANSAS) for criminal history
purposes.! In 2003, Mr. McGinn pled Guilty to violation of K.S.A. '§ 21-3502 (2) and of violation of K.S.A. § 21-3506 (a)
presentence investigation report revealed McGinn had a criminal history score of [E] based, in part, on a
prior Colorado felony conviction for menacing. The district court enhanced Mcginn's sentenced to an
underlying 554 months in prison, the mitigated presumptive sentence under the Kansas Sentencing Guidelines
Act (KSGA), based on McGinn's criminal history score of B.
In 2013, McGinn file a pro se motion to correct an illegal sentence, challenging the sentencing court's
decision to include his Colorado menacing conviction as a person felony in his criminal history. McGinn
claimed the court should have classified it as a nonperson offense. The district court denied the motion,
finding McGinn invited any error by stipulating to his criminal history score at sentencing. On appeal, we
reversed the district court's ruling and remanded the case for a hearing on the merits of McGinn's motion.
Relying on our Supreme Court's holding in State v. Dickey, 301 Kan. 1018,1032, 350 P.3d 1054 (2015), we
held a defendant's stipulation to criminal history at sentencing does not preclude a later claim that a prior
conviction was improperly classified as a person or nonperson crime for criminal history purposes. State v.
McGinn, 366 P.3d 666,2016 Kan. App. Unpub. LEXIS 141, 2016 WL 758310, at *2-3 (Kan. App. 2016)
(unpublished opinion). (APPENDIX C )
On remand, the district court appointed counsel for McGinn and held a hearing on his motion. McGinn
argued that under Apprendi v. New Jersey, 530 U.S. 466,120 S. Ct. 2348,147 L. Ed. 2d 435 (2000), and
Dickey, the sentencing court should have classified his Colorado menacing conviction as a nonperson offense
because there is no comparable offense in Kansas. The State disagreed, arguing that the Colorado crime of
menacing was comparable to the Kansas crime of aggravated assault. Following oral argument from both
counsel, the district court denied McGinn's motion. The court held the Colorado menacing statute was
substantially ^milar and comparable to the Kansas aggravated assault statute. The district court later denied

2

McGinn's motion to reconsider.
On Appeal the Kansas Appeals Court denied relief, and the State Supreme Court denied review, The
Petitioner comes before the United States Supreme Court, as the State of kansas has based discreationaiy
decisions affecting sentencing, in the hands of Judges, not a Jury, Where the State Statute clearly States Kan. Stat. Ann. § 21-6811 (e),(3) "If the state of Kansas does not have a comparable offense in effect on
the Hate the current crime of conviction was committed, the out-of-state conviction shall be classified as a
/
nonperson crime." - the Record of the State Appeals Court clearly noted the Specific subsection of the
Out-of-State convictions was unknown, and the Court made ifs own determination on ot's own accord as to
Which subsections, of the out-of-state statute. Petitioner was guilty of violating, making this determination
out subbitting the underlying 'facts' to a jury, and establishing the elements beyond a reasonable doubt.
The State appeals court noted - "Although McGinn admits that he committed the crime of felony
menacing, it is unclear whether his conviction was under subsection (a) or (b)." (APPENDIX C at *7 ), and
without jurisdictions over a out-of-State offence, the state appeals court made such determination of it's own
accord, in violation of mcGinn's Constitutional rights.
Accordingly petitioner, comes to the United States Supreme Court, seeking consideration of an issue
which has continued plague the Court on a recurring basis, only petitioner appear to be the First to actually
question the 'mechanics' of the Kansas Sentencing Guidelines as applied and the affect of Apprendi in
such Conatitutional Application.
Accordingly Petitioner preys this Court grant Review.

3

-0\

REASONS FOR GRANTING THE WRIT
Of Continues Constitutional Dispute among the lower State and Federal Courts, Involving Application
of Apprendi v. New Jersey, 530 U.S, 466 (2000), this case involves the State of kansas as it applies
It's Sentencing Guidelines in relation to application of the Principles Firmely Established in the Apprendi
line of Cases. In Dispute are Kan. Stat. Ann.§ 21-6810 and Kan. Stat. Ann.§ 21-6811, which
Specifically directs the State Court make "FINDINGS OF ADDITIOANL FACTS" which are then
' used to increase the underlying sentence, based on "Judicial Determination" that the prior crime
"ELEMENTS" are a "CRIME OF VIOLENCE" or "PERSON FELONY", where Apprendi specifically
Established that -"any fact (other than prior conviction) that increases the maximum penalty for a crime
must be charged in an indictment, submitted to a jury, and proven beyond a reasonable doubt. Kansas
places discreation in the trial Judge to _

"FINDINGS OF ADDITIONAL FACTS", where die Due

Process Clause of U.S.Const amend V and the notice and jury trial guarantees of U.S. Const amend.
VI.
At issue are not the TACT of the Prior Conviction but the ELEMENTS', in classifing that prior
Crime as a 'Crime of Violence' or [PERSON FELONY], Where "Apprendi concluded that any “facts
that increase the prescribed range of penalties to which a criminal defendant is exposed” are elements of
the crime. Id., at 490,120 S. Ct. 2348,147 L. Ed. 2d 435 (internal quotation marks omitted); id, at 483,
n. 10,120 S. Ct. 2348,147 L. Ed. 2d 435 (“[F]acts that expose a defendant to a punishment greater than
that otherwise legally prescribed were by definition ‘elements’ of a separate legal offense”). We held
that the Sixth Amendment provides defendants with the right to have a jury find those facts beyond a
reasonable doubt. Id, at 484,120 S. Ct. 2348,147 L. Ed 2d 435. While Harris limited Apprendi to facts
r• -

Where this becomes confused is the term (ELEMENTS) is referenced twice - first in relation to
the 'Current Crime' of which the offender is charged, and Second involving (ELEMENTS) of'a
separate legal offense'. Focus in on second portion of the Statement where the Sixth Amendment
provides defendants with the right to have a jury find those facts beyond treasonable doubt.

4

"The dispositive question in determining whether a jury determination is necessary, is one not of
form, but of effect. If a state makes an increase in a defendant's authorized punishment contingent on
the finding of a fact, that fact, no matter how the state labels it, must be found by a jury beyond a
reasonable doubt. A defendant may not be exposed to a penalty exceeding the maximum he would
receive if punished according to the facts reflected in the jury verdict alone." Ring v. Arizona, 536 U.S.
584 (2002)
'

The rule of Apprendi and 'Ring is that if a state makes an increase in a defendant's authorized
punishment contingent on the finding of a fact, that fact--no matter how the state labels it--must be
found by a jury beyond a' reasonable doubt. Apprendi explicitly limits its holding to sentence
Rnbanrp.menfr: based on facts other than the fact of a prior conviction. It is within the jury's province
to determine any fact, other than the existence of a prior conviction, that increases the maximum
punishment authorized for a particular offense.
In the Current case, the record clearly reflects that the State specifically requested the State Superior

. . ‘•

court - Remand the Cases, and premit the State to 'go Fishing' - requesting remand so the state can go on
a search of any means by which to classify the [OUT-OF-STATE] offense as a "PERSON' Felony, as
--a-simple-means to-juslify-the -inerease in •the'Underlying sentence. (APPENDIX__ ) (BRIEF OF APPELLEE, Page 10, L. 10 - 20)
Kansas first classified the Out of Sate Crime - as comparable the the Kansas Offense of
(Criminal threat), then has sought look at the Out of State 'STATUTE' rather that the "Conduct
involved", as justification to sustain the Sentencing enhancement "Findings of Additioanl facts',
preformed by a Judge, not a Jury, and then has proceeded to attempt classify the 'Out of State' offense
with any crime it cairsimply classify as being a "PERSON1 Felony. Including (Aggravated Assult, Simple
Assult), and avoiding any consideration of 'Comparable' (MISDEAMENORS).
•

■

Such 'finding of additional facts'1 is strictly prohibited, and allows confusion, where in making such
comparisons - the State looks not only at the 'Out of State Statute' but theh also innermixes the alligations
in ifs fact finding search, with (The factual statements that are contained in those documents are often

5

“prone to error.” Mathis v. United States, '579 U. S.__ ,__ , 136 S. CL 2243,195 L. Ed. 2d 604, 615
(2016).
This involves Double jeopardy questions as, the State of Kansas seeks to focus on any means it can
. to justify use of’ELEMENTS' of Prior Crimes, as means to justify the Increase in punishment for a
new conviction, and under the kansas Sentencign Scheme, allows an increase of over 30 years, based on
a 'out-of-State' crime which initially carried only a sentence of - (3 Years) - not as serious as the
"

prosecutor leads the State to Believe, the State appeals court noted the Same (APPENDIxj^J
'Although McGinn admits that he committed the crime of felony menacing, it is unclear whether his
conviction was under subsection (a) or (b).' State v. McGinn, 2018 Kan. App. Unpub. LEXIS 55,
Court ofAppeals of Kansas, July 20, 2018, Opinion Filed.
■With this admission as to the specific portion, the Kansas Appeals Court simply 'affirmed' based on
s

focus on the 'out of State’ Statute - Specifically subsection (b), and avoid any discussion of any lessor
' possible alternative, where the Colorado Statute contains Subsections (a) and (b), and the Colorado
T-'

enraging dockument is Silent.
As this involves Constitutional questions which continue to plague this court on a recurring basis
ever sense it anounced its ruling in Apprendi in 2000, this involves nearly 1500 person directly affected
in Kansas, but also other States as well as Federal Application. Kansas has simply capitalized on the
difficulify to articulate the constitutional challenge clearly.
This court, in speaking of determinaton of prior Convictions has stated 'a prior conviction must
itself have been established through procedures satisfying the feir notice, reasonable doubt, and
jury trial guarantees.1 Jones v. United States, 526 U.S. 227 at 249 (1999), actually an Apprendi
precurses case.
Kansas places the Establishment of these prior convictions directly in the discreation of the
. Court 'not a jury1 in direct disreguard to the Sixth and Fourteenth amendment rights of the petitioner,
where the State first faced challenge to it’s sentencing guidelines on a poorly presented arguement in
2002.

6

Kansas first faced challenge to it's Sentencing guidelines in 2002, in STATE OF KANSAS v. DAVID
L. IVORY, 273 Kan. 44 - Supreme Court of Kansas, March 8,2002, Opinion Filed (APPENDIX----- )
based on the underlying arguement presented by Ivory, who challenges only the horizontal axis on which
the Kansas Sentencing Guidelines Act (KSGA) operates, Ivory failed to challenge the Mechanic's of that
Axis, which has allowed kansas Operate on it's own determination.
The Kansas Sentencing Guidelines Act (KSGA) operates on (a letter designation along the horizontal
axis of the KSGA grid; the vertical axis indicates the severity level of the crime), (a letter designation
along the horizontal axis of the KSGA grid - esstablishes the prior crimes on which the sentence increases,
these Axis operate on a Axis of [RIGHT] to [Left], [boxes I, through E] are not in dispute as these Boxes
operate on the TACT of prior Convictions Consistant with Apprendi, what are in dispute are the [boxes,
D, through A], these boxes operate in violation of Apprendi, placing 'finding of Additional facts' in the
■ Discreation of the Court, not a Jury, in Violation of The Fourteenth Amendment right to due process and
the Sixth Amendment right to trial by jury, taken together, entitle a criminal defendant to a jury
determination that he is guilty of every element of the crime with which he is charged, beyond a
reasonable doubt. Apprendi v. New Jersey, 530 U.S. 466,120 S. Ct 2348, 147 L. Ed. 2d 435, (2000).
Petitioner, in his latest attempt addressed this failure on Ivory, and Made direct challenge seeking the
State Court address the 'mechanics' of its sentencig guidelines, to which the court again stood firm on its
• own determination in Ivory, avoiding any determination of the Constitutional Challenge m this current
case.
Kansas based determination of (out of State) crimes in the Discreation of a judge, not a jury,
"In calculating a criminal history score for sentencing on the current crime of conviction, all felony
convictions and adjudications and certain misdemeanor convictions and adjudications occurring prior to
the current sentencing are considered, including those that occurred in other states. Kan. Stat Ann.
§ 21-6810(a) (2011) [APPENDIX ^ 1 -; Kan. Stat. Ann. § 21-6811(e) (2017). For out-of-state
adjudications, Kansas accepts the foreign jurisdiction's designation of its crime as either a felony or
misdemeanor, but this state will classify an out-of-state crime as either person or nonperson by referring

7

to comparable offenses under the Kansas criminal code in effect on the date the current crime was
committed. If there is no such comparable Kansas offense, the out-of-state adjudication will be scored
as

a nonperson crime. § 21-6811 (e)." State v. Buell, 307 Kan. 604 (2018)
The Court just affirmed ON WRIT OF CERTIORARI TO THE UNITED STATES COURT OF

APPEALS FOR THE FIFTH CIRCUIT 25486 (5th Cir. Tex., Sept 7,2018) -

United States v. Davis, 903 F.3d 483,2018 U.S. App. LEXIS

United States v. Davis, 139 S. a. 2319, Supreme Court of the

United States, April 17,2019, Argued; June 24,2019, Decided the Lower Court striking down the ’residual
clause, in-

18 U.S.C.S. § 924(c)(3)(B),' - Kan. Stat. Ann. § 21-6811(e) is simulular to this same

determination, allowing the State in this current case look for any means by which to determine without
factual support that the underlying [OUT OF STATE] crime involved subsection (b) rather than (a) of the
Colorado offense.
The sentencing court erred in classifying his prior Colorado conviction for menacing, as defined in Colo.
Rev. Stat. § 18-3-206 (2000) (APPENDIX _J_J , as a person offense for criminal history purposes,
the State Court in its 2018 ruling, admitted on the record ’’it is unclear whether his conviction was under
subsection (a) or (b).” [APPENDIX D 1 at *7 - the Court itself stated "Because McGinn’s Colorado
conviction could have

resulted from conduct exceeding Kansas' definition of aggravated assault, the

district court erred in finding that the two crimes were comparable. (APPENDIX

c’tD

at *8.

as a Person Crime
the State Statute provides no reliable way to determine which offenses qualify
(CRIME OF VIOLENCE), and thus is unconstitutionally vague.
The

State itself admitted [APPENDIX _D_J at *3 "The State counters that while the two offenses do

not have

identical elements, they are sufficiently similar to constitute comparable offenses. Alternatively,

the State argues that Colo. Rev. Stat. § 18-3-206 is comparable to the Kansas crime of simple assault,
K.S.A. 21-3408.

- (a Kansas misdeamenor). - and the Appeals court took it upon itself with no supporting

record.
, Apgeai coraf violated Apprendi, w^Stated pbte to M-**-or-narrower rule set forth in
Kansas
Wetrichj these Crimes are comparable because McGinn's Convictions under Colo. Rev. Slat. § lM-206(lXb)].

8

With little material on the Subject of Apprendi and the Constitutional protection concerning Double
v
Jeopardy, as applied to the Current Sentence - based on [ELEMENTS], OR [PRIOR CRIMINAL
ACTS], for which Petitioner Carlon McGinn, has already been punished, and in order to sustain the
increase in the underlying sentence, The State of Kansas has simply placed the determination of the
"ADDITIONAL FACTS" in the Discreation of a Judge.
'The Double Jeopardy Clause of the Fifth Amendment provides that no person may be twice put
' in jeopardy for the same offence. U.S. Supreme Court double jeopardy case law is complex, but at
its core, the Clause means that those acquitted or convicted of a particular “offence” cannot be
tned^a/second time for the same “offence”.! Gamble v. United States, 139 S. Ct. 1960 (2018), in the
Current Case, Petitioner has been subjected to being tried by a Kansas Trial Judge, as well as a Kansas
• Appeals. Court judge, whTch &ade the .determination that Detitioner was guilty of (MENACING)
under the Colorado Statute - Colo. Rev. Stat § 18-3-206(1), specifically subsection (b), as a
means to justify the increase in the Kansas Sentence from (221) months - to (554) Months, an
increase of over 27 years (333) Months, in essence petitoner has been [Twice put m jeopardy for
the same offense], once with the Colorado Court, and a Second time with the Kansas Court, simply
as a means for Kansas to Justify a sentence increase, based on (Judicial Finding of Additional Facts),
ifically Required "Under the Due Process Clause of the Fifth Amendment and the
not a jury, as spec
notice and jury trial guarantees of the Sixth Amendment, any fact (other than prior conviction) that
increases the maximum penalty for a crime must be charged in an indictment, submitted to a jury, and
proven beyond a reasonable doubt " Jones v. United States, 526 U.S. 227,143 L. Ed. 2d 311,119 S.
Ct 1215 (1999).[ n. 6.]. This does hot involve the (FACT) of the Prior Conviction,, but the
. Determination of the [ELEMENTS] of that prior Conviction, Based on the Kansas Sentencmg
Guideleins Act (KSGA), the State makes the Determination on the findings of a judge, not a Jury, Kan. Stat Ann. § 21-6811 (e).
The Eighth Amendment's ban on cruel and unusual punishments prohibits sentences that are
disproportionate to the crime

committed, and the constitutional principle of proportionality has been

9

recognized explicitly in the United States Supreme Court for almost a century. Three factors may be
relevant to a determination of whether a sentence is so disproportionate that it violates the Eighth
Amendment: (i) the gravity of the offense and the harshness of the penalty; (ii) the sentences
imposed on other criminals in the same jurisdiction; and (iii) the sentences imposed for commission
of the same crime in other jurisdictions. Ewing v. California, 538 U.S. 11 (2003)
In the Current case, McGinn's underlying sentence 'absent' the finding of any additional facts,
based on the Kansas Sentencing Guidelines, would be that of (three Plus) [unlabeled Felonies], or
the (E) box of the Guidelines grid. [APPENDIX LL 1. only after the Finding of 'Addititonal Facts',
preformed by a judge, not a jury, does the State then label those Prior Offenses as [PERSON]
crimes.
The Tenth Circuit addressed this [June 17, 2019], Gordon v. Cline, 772 Fed. Appx. 712, Stating,
■However, it is clear from the record that the sentencing court did not look at the underlying facts of
Petitioner's past criminal offenses. Certain prior offenses were classified as "person" offenses based
on the statutory elements of those offenses, not based on any individualized factfinding about
Petitioner's specific conduct in those cases. Petitioner has not shown that this constituted an
unreasonable application of federal law; indeed, this approach appears to be consistent with the
Supreme Court's categorical approach for federal courts to apply in determining whether a defendant's
prior offense should be characterized as a "violent felony"—a characterization which, like Kansas's
"person" characterization of prior offenses, may affect the length of the defendant's sentence. See
Taylor v. United States, 495 U.S. 575, 600,110 S. Ct 2143,109 L. Ed. 2d 607 (1990). Accordingly,
Petitioner has not shown that reasonable jurists could debate the state court's resolution of this claim
under the deferential standard required by § 2254(d).
This Finding was incorrect and avoids the Central requirement, that such finding (MUST) be made
by a Jury, not a Judge - accordingly, reasonable jurists could debate the state court's resolution of this
claim under the deferential standard required by § 2254(d).
It is not simply disputed whether the State may use the [Elements] or Prior Crimes, but in order to

10

properly do so, Such Elements [ a prior conviction must itself have been established through procedures
satisfying the fair notice, reasonable doubt, and jury trial guarantees.] Jones v. United States, 526 U.S.
227, at 249 (1999) in the Current case -

(“[Fjacts that expose a defendant to a punishment greater than

' that otherwise legally prescribed were by definition ‘elements’ of a separate legal offense”). Alleyne
v. United States, 570 U.S. 99 at 111 (2013), in ifs review the Tenth Circuit simply avoided the central
requirement that these findings (MUSI) be made by a jury, not a Judge.
-the imposition of criminal punishment can’t be made to depend on a judge’s estimation of the degree
ij

of risk posed by a crime’s imagined “ordinary case.”, United States v. Davis, 139 S.Ct 2319 (2019),
where clearly in the Current case the Trial Courtjudge himself first - absent any support in the record,
Determination that Petitioners (OUT-OF-STATE) conviction involved subsection (b) of the
made the
Colorado Statute, as noted earlier, the kansas Court of Appeals also noted the Record was Silent to this
Fact, and again the Appeals Court in order to Sustain the Additional sentence of over 27 Additional Year,
took it upon itself and again made a Determination petitioner violated Subsection (b) of the Colorado
Statute.
In fact the State Statute itself Kan. Stat Ann. § 21-6811, directs State Judges to make his own
-

determination ofthe [ELEMENTS] involved, in comparing the Out-of-State Crimes.
-EffieT5Usent,mUnKed States v. Davis, 139 S. Ct. 2319, the Justices described the very nature of
the problem which- plague the State of Kansas on a continued basis stating FIRST', in the priorconviction cases, the Court emphasized thatthe categorical .approach avoids-the-diffieulties-and
inequities of relitigating

“past convictions in minitrials conducted long after the fact Moneneffe v.

Holder, 569 U.S. 184,200-201 (2013), a problem which plagues Kans as with the Greatest Number of
pared to any other State, and in the present Case, the
Apprendi Appeals based on State population com
Following Statements apply as well, (The factual statements that are contained in those documents are
often “prone to error.” Mathis V. United States, 579 U. S. _ ^___3136 S. Ct 2243,195 L. Ed. 2d 604,
615 (2016). The categorical approach avoids the unfairness of allowing inaccuracies to “come back to
hfmnt the defendant many years down the road. ’ Id., at---- . , 136 S. Ct. 2243,195 L. Ed. 2d 604, 615-

11

616). The Court has echoed that reasoning time and again. See, e.g., Sessions V. Dimaya, 138 S. CL
138 S. a. 1204,200 L. Ed. 2d 549 (plurality opinion), 200 L. Ed. 2d 549,

1204, 584 U. S., at__ „

Johnson v. United States, 576 U. S., at

135 S. Q. 2551, 192 L. Ed. 2d 569 (slip op-., at 13);

Descamps v. United States, 570 U. S. 254, 270,133 S. CL 2276,186 L. Ed. 2d 438 (2013); Chambers
v. United States, 555 U. S. 122,125,129 S. CL 687,172 L. Ed. 2d 484 (2009).
Existing law principles dating back to 1970 - In re Wrnship, 397 U.S. 358, and Kansas, in
order to sustain, sentencing which violated the Principles 'given Force or Effenct’ in the Rulings of
this Court have Clouded the Issue.
[Existing law] - prov

iding protection to all person already sentenced, {Apprendi v. New Jersey, 530

U.S. 466 (2000), Alleyne v.
Blakely v. Washington,

United States, 570 U.S. 99 (2013), Ring v. Arizona, 536 U.S. 584 (2002),

542 U.S. 296 (2004).} and this line of Cases all simply applied Existing law,

protections to which those already Sentenced, and who’s State cases already final on direct review, are
fully entitled. JUSTICE STEVENS, concurring, in Jones v. United States, 526 U.S. 227(1999) Listed
Tie Mowing oases - [In re WinsMp, 397 OS. 358,25 L. Ed. 2d 368,90 S. Ct 1068 (1970), Mullane,
Wilbur, 421 U.S. 684,44 L. Ed. 2d 508,95 S. Ct 1881 (1975), and Patterson V. New York, 432 U.S.
197, 53 L. Ed. 2d 281
protections

, 97 S. CL 2319 (1977).], it is these Existing legal principles which provid Existing

, and through Misleading and Misrepresenting the underlying Rule of law, Kasnas has been

able to maintain Illegal Sentencing on Persons like (ROBERIL. VERGE V. STATE OF KANSAS, 50
Kan. App. 2d 591 (2014), who's hard 50 Sentence is entitled to Existing law protections , as applied by
Apprendi, and Allenye, Respectively.
The Kansas Supreme Court has correctly stated 'Alleyne is an extension of Apprendi. The United
States Supreme Court has decided that other rules based on Apprendi do not apply retroactively on
collateral review. See Schriro v. Summerlin, 542 U.S. 348, 358,124 S. Ct. 2519, 159 L. Ed. 2d 442
(2004) (finding that Ring v. Arizona, 536 U.S. 584,122 S. CL 2428,153 L. Ed. 2d 556 [2002], which
held Arizona's

death penalty sentencing scheme unconstitutional in fight of Apprendi, did not apply

heady final on direct review). This implies that the United States Supreme Court
retroactively to cases a

12

will not declare Alleyne to be retroactive to cases that are already final on Direct Review. Likewise, our
Supreme Court has found that Apprendi does not Apply Retroactively to Cases on collateral review. We
can find nothing that Distinguishes this case from Apprendi and the analysis in Whisler when it comes to
Retroactivity. SEE: Verge v. Satte, 50 ka. App. 2d 591, 598 (2014)
The State Court holding 'our Supreme Court has found that Apprendi does not Apply Retroactively to
Cases on collateral review.' is Written with the intent to mislead that the Apprendi Line of of cases only
tAPPLIED EXISTING LAW], and the Discussion concerning retroactivity is written with the intent to
mislead the untrained reader.
Existing Law protections, which include the underlying fact - those cases already final on direct
Review - are already entitled to the protections of these Existing Laws. Which this court has Stated when
Sentencing is involved - By the traditional understanding of habeas corpus, a "fundamental miscarriage
ofjustice" occurs whenever a conviction or sentence is secured in violation of a federal constitutional
right See 28 U. S. C. § 2254(a) (federal courts "shall entertain" habeas petitions from state prisoners
who allege that they are "in custody in violation of the Constitution or laws or treaties of the United
States"); Smith V. Murray, 477 U.S. 527, at 543-544. (1986).
hi essence, those Cases remain increased based on a "Fundamental Miscarrage ofjustice based on
the Fact the Underlying sentence is secured in violation of a federal constitutional right See 28 U. S. C.
§ 2254(a).
This includes Petitioner, who's Sentence is secured in violation of the Constitutional Rights, as the
U.S. Const, amend. XIV provides for the proscription of any deprivatipn of liberty without due pro cess
of law, and U.S. Const, amend. VI guarantees that in all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an impartial jury. Taken together, these rights indisputably entitle
a criminal defendant to a jury determination that he is guilty of every element of the crime with which he
is charged, beyond a reasonable doubt.
As in Apprendi directly - the State trial Judge - 'based upon the judge's finding, by a preponderance of
the evidence, that 1he defendant's "purpose" for unlawfully possessing the weapon was "to intimidate"

13

his victim on the basis of a particular characteristic the victim possessed. In light of the constitutional
rule explained above, and all of the cases supporting it, this practice cannot stand.' Apprendi, at 491 - 492.
The Kansas Judge had to Determine - without the Right to Jury, that Petitioner Violated (1) A person commits the crime of menacing if, by any threat or physical action, he or she
knowingly places or attempts to place another person in fear of imminent serious bodily injury.
Menacing is a class 3 misdemeanor, but, it is a class 5 felony if committed.
'and03^ J3y the person representing verbally or otherwise that he or she is armed with a deadly
weapon.
Petitioner [WAS NOT] afforded the Right that a jury make these findings, and the Court should make
the Following determination - that the Kansas procedures challenged in this case is an unacceptable
departure from the jury tradition that is an indispensable part of our criminal justice system. Accordingly,
the judgment of the Court of Appeals of Kansas Should be reversed, and the case is remanded for
further proceedings not inconsistent with the opinion in Apprendi
As the dissenting Justinces outlines in United States v. Davis, 139 S. Ct. 2319, at 2344,, Kansas
court are plagued - "courts would have to determine the underlying conduct from years-old or even
decades-old documents with varying levels of factual detail. Taylor v. United States, 495 U. S. 575,
Compared to State v. Dwerlkotte, 2018 Kan. App. Unpub. LEXIS 685, Court of Appeals of Kansas,
August 31,2018, Opinion Filed - Who has faced Not one, Not Two, Not Three, But Resentencing Six
Times on the State Fishing at any means to [LABEL] or Classify the Prior Convictions as Person Crimes
as means to Justify the Enhanced Sentence - So All Six Appeals Should be Considered’ in this Courts
revies of the Unconstitutional Nature of the Kansas Sentencing Statute, Each of the justices Following
Statments all Apply - "The factual statements that are contained in those documents are often “prone
136 S. Ct. 2243, 195 L. Ed. 2d 604, 615 (2016).

to error.” Mathis v. United States, 579 U. S.

The categorical approach avoids the unfairness of allowing inaccuracies to “come back to haunt the
Hp.fpnrlant many years down the road.” Id., at

136 S. Ct 2243,195 L. Ed. 2d 604, 615-616). The

14

Court has echoed that reasoning time and again. See, e.g., Dimaya, 584 U. S., at

138 S. Ct.

1204,200 L. Ed. 2d 549 (plurality opinion) 138 S. Ct 1204,200 L. Ed. 2d 549 (slip op., at 15);
Johnson, 576 U. S., at

135 S. Ct. 2551, 192 L. Ed. 2d 569 (slip op., at 13); Descamps v. United

States, 570 U. S. 254,270, 133 S. Ct 2276, 186 L. Ed. 2d 438 (2013); Chambers v. United States,
555 U. S. 122,125, 129 S. a. 687, 172 L. Ed. 2d 484 (2009).
Yet these very problems plague Petitioner, as well as others affected by this Sentencing Structure
' maintained by the State of Kansas - Petitioner would stress - it is not the issue that Kansas can
use the ’Elements' of those prior convictions, the Issue is the Procedure in which this is being
undertaken by the Judge rather than a jury.
To illistrate the History of how the State has continued to manivure the Unconstitutional acts
through both the State Courts, as well as the State Legislature, Petitioner , will attempt to provide
some history, While this began with State v. Ivory, 273 Kan. 44 (2002), this was followed by '
State v. Murdock, 299 Kan. 312, 323 P.3d 846 (2014) (SPECIAL NOTE) - (Defendant's two prior
out-of-state convictions must be scored as nonperson offenses under Kan. Stat. Ann. § 21-4710(d)
(8) following the Williams precedent, because in the absence of a statutory directive a comparable
offense should be determined as of the date the prior crime was committed, when using the date the
prior out-of-state crime was committed to calculate a defendant's criminal history score was
consistent with the fundamental rule of sentencing for a current in-state crime; the Kansas Supreme
Court recognized this rule resulted in the classification of all pre-1993 crimes as nonperson felonies,
an outcome the State characterized as unreasonable.)
Followed by - State v. Dickey, 301 Kan. 1018 (2015) (Sentencing court violated Apprendi by going
beyond the fact that defendant had an unclassified prior adjudication for burglary to consider other
facts in deciding that his prior burglary adjudication involved a dwelling and was a person felony,
which in turn merp.asp.rl the penalty for his current crime beyond the prescribed statutory
Maximum.).

15

Followed by - State v. Keel, 302 Kan. 560 (The evidence was sufficient to show that defendant had
constructive possession of drugs and paraphernalia found in the residence he shared with his
girlfriend because a glass pipe containing methamphetamine residue was in close proximity to
defendant, a baggie of methamphetamine was in plain view, and defendant tried to avoid discovery
by burrowing away in a hidden room containing surveillance equipment, [2]-Consistent with recent
amendments to Kan. Stat. Ann. §§ .21-6810,21-6811, defendant's 1993 Kansas convictions for
'attempted aggravated robbery and aggravated robbery were properly classified as person felomes
(resulting in a criminal history score of B), based on the classification in effect for those crimes
when the current crime's were committed (overruling State v. Williams, 291 Kan. 554,244 P.3d 667
(2010) and State v. Murdock, 299 Kan. 312, 323 P.3d846 (2014)).).
Followed by - State v. Murdock, 309 Kan. 585 (2019) (SPECIALNOTE) (This is the Same
Murdock as Above) (Kan. Stat Ann. § 21-6810(d)(2) provides that prior adult felony convictions for
offenses that were committed before July 1,1993, shall be scored as a person or nonperson crime
using a comp arable offense under the Kansas criminal code in effect on the date the current crane
of conviction was committed. Kan. Stat Ann. § 21-6811(e)(3) provides that the state ofKansas
shall classify the out-of-state crime as person or nonperson. In designating a crane as person or
nonperson, compar

able offenses under the Kansas criminal code in effect on the date the current

crime of conviction was committed shall be referred to. If the state ofKansas does not have a
comparable offense in effect on the date the current crime of conviction was committed, the outof-state conviction shall be classified as a nonperson crime. To avoid retroactivity concerns, the
State claimed State v. Keel and H.B. 2053 did not change the law; instead, they merely recognize or
clarify the Kansas Sentencing Guidelines Act's existing requirements.).
Kansas has made every attempt to legislate it's way to sustain every means to use those prior
Convictions, As noted State v. Murdock, 309 Kan. 585 (2019) - the State had went so far as attempt
to manipulate the Change in the Statute as a means to 'Classify the Prior Convictions as a "PERSON
Crime, as a means to increase from the [C] box to the [A] box where the [C] Box has a base

-16

Sentence of 102 months, to the (A) box with a base of 223 Months - the Increase of close to 10
Years.
Just this year Kansas passed - 2019 Bill Text KS S.B. 18 - Modifing yet again - Out-of-State
Crimes -

Subsection (B) [If a crime is a misdemeanor in the convicting jurisdiction, the state of

Kansas shall refer to the comparable offense under the Kansas criminal code in efFect on the date the
current crime of conviction was committed to classify the out-of-state crime as a class A, B or C
' misdemeanor. ffthe comparable offense in the state of Kansas is a felony, the out-of-state crime shall
be classified as

a class Amisdemeanor. If the state of Kansas does not have a comparable offense in

effect on the date the current crime

of conviction was committed, the out-of-state crime shall not be

used in classifying the offender's criminal history.].
Twist, turn, manipulate, and rewrite the statute, reguardless, the Unconstitutional act is still bemg
placed in the Discreation of the judge - Not a jury as Constitutionally required, based on the Sixth
and Fourteenth Amendment Protections - Given Force of Effect in Apprendi.
This Now involves Fourteeth Amendment issue, thatK.S.A. 2019 Supp. 21-6810 violates the
Equal Protection Clause of the United States Constitution because (1) it differentiates between
individuals who are

convicted in another state and person Convicted in Kansas, and (2) it places

Discreation in the hands of a Judge, not a Jury as requird by the Sixth and Fourteenth Amendment.
Also - KS.A.

2019 Supp. 21-6811 violates the Equal Protection Clause of the United States

Constitution because (1) it differentiates between individuals who are convicted in another state and
per

son Convicted in Kansas, and (2) it places Discreation if the hands of a Judge, not a Jury as

requned"byfhe Sixth and Fourteenth Amendment
reguardless, looking at the continued course of Statutory changes, Kansas continues to avoid any change
requirements of ApprendL the Kansas sentencing scheme should be held unconstitutional
that would meet the
under the Scheme, a trial Judge, not a jury, makes findings necessary to impose the increased penalty.
because,
sentencing scheme violates the Sixth Amendment right to a trial by Jury because a Judge,
Specifically, Kansas
not a jury, found the existance or the aggraviting circumstance

17

that made the Defendant eligible for the

increased Sentence.The Sixth Amendment requires that the Specific findings authorizing an increased sentence,
must be made by a jury. The ("[F]acts tiiat exposed a defendant to a punishment greater than that otherwise
legally prescribed were by definition 'elements' of a seprate legal offense"). This Court has Clearly stated that
the Sixth Amendment provides defendants with the Right to have a jury find those fads beyond a reasonable
doubt. Apprendi v. New Jersey, 530 U.S. 466, at 484,120 S.Ct. 2348,147 L.Ed.2d 435 (2000), Alleyne v.
United States, 570 U.S. 99 at 111 -112,133 S.Ct. 2151,186 l.EA2d 314 (3013)
'

Further, in Robert L. Verge v. State of Kansas, 50 Kan. App. 2d 591 (2014) persons faced with a (HARD
50) sentence, the State of Kansas, has deliberate mislead those under this Sentencing Scheme. While the State

'

Court is Correct that the Ruling stating (The United States Supreme Court has decided that other rules based on
Apprendi do not apply retroactively on collateral review. See Schriro v. Summerlin, 542 U.S. 348, 358,124
S. CL 2519,159 L. Ed. 2d 442 (2004) (finding that Ring V. Arizona, 536 U.S. 584,122 S. Ct. 2428,153 L. Ed. 2d
556 [2002], which held Arizona's death penalty sentencing scheme unconstitutional in light of Apprendi, did not
apply retroactively to cases already final on direct review).
This discussion is misleading, as those persons who's cases were not under [collateral review] are still in
fact entitled to the protections of Apprendi, Alleyne, respectively, as both Apprendi, as well as Alleyne, only
gave Force or Affect - or Applied Existing law.
These Cases, gave effect to, In re Winship, 397 U.S. 358, 364, 25 L.Ed.2d 368, 90 S.Ct. 1068 (1970) - the
historical foundation for these principles extends down centuries into common law. While Judges in this Country
■have long exercised disereation-in-sentencing,-such discreation-is bound-by the range-of-sentencmg-optdonsprescribed by the legislature. SEE, e.g., United States v. Tucker, 404 U.S. 443, 447,30 LEd.2d 592, 92 S.Ct 589.
The historic inseparability of verdict and judgement and the consistent limitation on judges' diecreation highlight
the novelty of a Scheme that removes the jury from the determination of a fact that exposes the defendant to a
penalty exceeding the maximum he could receive if punished according to the facts reflected m the jury verdict
alone. Others simularly denied the 'protections of Existing law' based on the misdirection in the discussion on
retroactivity-where these person'ARE'entitled to the protection of -EXISTING LAW. - Including person
such as -

State v. Vasquez, 52 Kan. App. 2d 708 (2014), and State v. Thomas, 307 Kan. 733 (2014) - both were

18

denied based on the misleading discussion concerning "RETROACTIVITY" as opposed to EXISTING LAW.
With Currently between 1,000 and 1,500 person directly Affected by by the Sentencing Scheme of Kansas,
where as petitioner faces an increase of over 27 years, others could face an

increase of up to or more than (653)

months - compared to (246) if sentenced without the [ELEMENTS] of other crimes being imposed for a Second
time, this case is of significant Constitutional concern and the Court should Accordingly grant the Writ
In Fair Consideration, a review of the Colorado Statute should be considered, where Kansas in order
' to sustain the Disproportiate sentence - in "Violation of the Eight amendment - which states - U-S.
Const amend VUI provides: Excessive bail shall not be required, nor excessive fines imposed, nor
cruel and unusual punishments inflicted.
Colorado has it’s own assault statutes - Colo. Rev. Stat § 18-3-203(l)(b) (1986) [second degree
assault] - the Colorado Court has Compared Eelony menacing to it's own Assult Statute, and Clearly
asserted that felony menicing is not a 'Lessor Included Offence' - SEE: People v. Truesdale, 804 P.2d
287, Further, the Office of the Colorado public Defender was Contacted, and they responded, stating
that, "Your letter ask if the menacing charge you pleaded guilty to is a "Crime against person. In
Colorado, crimes are not declared by the legislature as a Crime against or not against a person. It is
likely this is an

internal DOC designation that the Colorado court have no control over. Colorado does

however, designate crimes as being "extradorinaiy risk" or "Crimes of Violence (COY)." Menacing in
Colorado (IS NOT) designated as either an extradorinary risk crime, or COV. - (APPENDIX
• Where the Tenth Circuit, in it's diccussion of the Manner in Which Kansas Applies it's Statutes,
Stated - "Certain prior offenses were classified as "person" offenses based on the statutory elements of
those offenses, not based on any individualized factfinding about Petitioner's specific conduct in 1hose
cases

. Petitioner has not shown that this constituted an unreasonable application of federal law; indeed,

this approach appears to be consistent with the Supreme Court's categorical approach for federal courts
to apply in determining whether a defendant's prior offense should be characterized as a "violent
felony"—a

characterization which, like Kansas's "person" characterization of prior offenses, may affect

the length of the defendant's sentence. See Taylor v. United States, 495 U.S. 575, 600,110 S. a. 2143,

19

109 L. Ed. 2d 607 (1990)."- See: Gordon v. Cline, 772 Fed. Appx. 712 (June 17, 2019) (United States
Court of Appeals for the Tenth Circuit).
Where as applied, this finding by the United States Court of Appeals for the Tenth Circuit, is an
unreasonable application of how Kansas Applies it's own Statutes, in making ifs determination, the
Kansas Courts violate the Following - "not based on any individualized factfinding about Petitioner s
specific conduct in those cases", where in the Current case, the State of kansas did exactly what the
' tenth Circuit States they do not do - "Individualized factfinding about petitioenr's specific conduct ,
Comparing the Kansas "Person" Felony" classification to a "violent felony" - where Colorado - does
not make this Classification,

- r

'In our constitutional order, a vague law is no law-at all. Only the people’s elected representatives in'
Congress have the power to write new federal criminal laws. And when Congress exercises that power,
it has to write statutes that give ordinary people fair warning about what the law demands of them.
Vague laws transgress both of those constitutional requirements. They hand off the legislature s
responsibility for defining criminal behavior to unelected prosecutors and judges, and they leave people
with no sure way to know what consequences will attach to their conduct. When Congress passes a
vague law, the role of courts under the Constitution is not to fashion a new, clearer law to take its place,
but to treat the law as a nullity and invite Congress to try again. United States v. Davis, 139 S. Ct. 2319
(2019) - further the Court states - ’Our doctrine prohibiting the enforcement of vague laws rests on the
twin constitutional pillars of due process and separation of powers. See Dimaya, 584 U. S., at---- ----- ,
138 S. a. 1204,200 L. Ed. 2d 549, 570 (plurality opinion); id., at

J 138 S. a. 1204,200 L. Ed.

2d 549 (Gorsuch, J., concurring in part and concurring in judgment) 138 S. Ct. 1204,200 L. Ed. 2d 549
(slip op., at 2-9). Vague laws contravene the “first essential of due process of law” that statutes must
give people “of common intelligence” fair notice of what the law demands of them. Connally v. General
Constr. Co., 269 U. S. 385, 391,46 S. Ct. 126,70 L. Ed. 322 (1926); see Collins v. Kentucky, 234 U. S.
634,638, 34 S. Ct 924, 58 L. Ed. 1510 (1914). Vague laws also underpine the Constitution’s separation
of powers and the democratic self-governance it aims to protect. Only the people’s elected

20

representatives in the legislature are authorized to “make an act a crime.” United States v. Hudson, 11
. U.S.32, 7 Cranch 32, 34, 3 L. Ed. 259 (1812). Vague statutes threaten to hand responsibility for defining
crimes to relatively unaccountable police, prosecutors, and judges, eroding the people’s ability to oversee
the creation of the laws they are expected to abide. See Kolender v. Lawson, 461 U. S. 352, 357-358,
103 S. Ct. 1855,75 L. Ed. 2d 903, and n. 7 (1983); United States v. L. Cohen Grocery Co., 255 U. S. 81,

/

89-91 ,. 41 S. a. 298, 65 L. Ed. 516 (1921); United States v. Reese, 92 U. S. 214, 221,23 L. Ed. 563
(1876). - See: United States v. Davis, 139 S. Ct. 2319 at 2325.
In the current case, petitioner made specific arguements as to 'why' the State was able to affirm ifs
statute in State v. Ivory, 273 Kan. 44 (2002), in fact, petitioner made specific arguements as to the actual
Mechanics of the Kansas Sentencing Guidelines (KSG) grid, and the Court again simply upheld the States
Sentencing Structure, Refusing any Reconsideration of State v. Ivory, Supr
As illistrated, the Kansas Statute clearly hand responsibility for defining crimes to relatively
unaccountable police, prosecutors, and judges, eroding the people’s ability to oversee the creation of the
laws they are expected to abide. - all with the central effort to punish a second time for criminal acts for
which the offender has already been punished - Double jeopardy protection extends to punishments that
are not positively covered by the language of the Fifth Amendment. It is very clearly the spirit of the
instrument to prevent a second punishment under judicial proceedings for the same crime, so far as the
- in the Current
common law gave that protection.', Yeager v. United States, 557 U.S. 110, 117 (2009)
case, petitioner had already been punished in Colorado, and kansas, has punished him a Second time
based on the 'STATE OF KANSAS' finding petitiner had violated subsection (b) of he Colorado Statute,
I

although the State Appeals Court clearly Noted that the Records from Colorado, [DID NOT] make
specific note of Eitehr Subsection (a) or (b).
The contention that "placing the responsibility on a trial judge to impose the sentence in a capital case
is so fundamentally at odds with contemporary standards of fairness and decency 1hat Florida must be
required to alter its scheme and give final authority to the jury to make the life-or-death decision. " Id., at
465; see

also Walton V. Arizona, 497 U.S. 639, 648, 111 L. Ed. 2d 511,110 S. Ct 3047 (1990); Clemons

21

V. Mississippi, 494 U.S. 738, 745,10! L. Ed. 2d 725,110 S. 0.1441 (1990). and this court has clearly
stated that simply because a case

is (Capital) in nature or not - The Court has Stated it has -

"refused to hold that the fact that a
review on federal habeas corpus.

death sentence has been imposed requires a different standard of

« Murray v. Giairatano, 492 U.S. 1,9,106 L. Ed. 2d 1,109 S. Ct. 2765

(1989) (plurality opinion). Herrera v. Collins, 506 U.S. 390 at 405 (1992) - Such differential treatment
would violate the equal protection clause of the Fourteenth Amendment.
Kansas has remanded cases over 6 times - allowing the trial conrt repeated means to 'fish' or 'Justify
by any means the manner of making this increase.
Repeated times for Resentecing -

and then the State in order to sustain an Increased sentence - resorted

to 'Vindictive Sentecing Violations'.
two

SEE: State v. Dwerlkotte, 425 P.3d 372 - Remanded

- "However, in Dwerlkotte's original sentencing his sentences for his

convictions were ordered to run concurrent to each other-at resentencing his sentences for his
convictions were ordered to run consecutive to each other."
See: State v. Murdock, 309 Kan. 585 (2019) - "This is Jimmy Lee Murdock's second appeal to
Also this court. In his first appeal, Murdock argued the district court miscalculated his criminal history score
when it classified his two out-of-state offenses as person crimes, resulting in a criminal history score of
A. State V. Murdock, 299 Kan. 312,313, 323 P.3d 846 (2014), modified by Supreme Court order
September 19, 2014, overruled by State v. Keel, 302 Kan
Murdock's prior out-o

. 560, 357 P.3d 251 (2015). We agreed, holding

f-state convictions must be scored as nonperson offenses. Murdock, 299 Kan. at

Shawnee County District Court Mowed our mandate in Murdock, scored
319. At resentencing, the
Murdocks prior out-of-strde convictions as nonperson felonies, and found he had a criminal history score
of C. Shortly after, Keel overruled Murdock, and the State move
district co

d to correct Murdock's sentence. The

urt granted the motion and sentenced Murdock a third time, finding a criminal history score of

al, Murdock argues his second sentence was legally imposed under Murdock, and ft did
A. - On appe
illegal after Keel changed the law. We agree and hold the legality of a sentence under
not become
22-3504 is controlled by the law in effect at the time the sentence was pronounced.
K.S.A. 2018 Supp.
Accordingly, we reverse and remand." - again the State attempting find any means to Punish for Prior

22

Crimes for which a person had already been punished.
Further this court has States, Also in Davis, at 2333 -Respect for due process and the separation of
powers suggests a court may not, in order to save Congress the trouble of having to write a new law,
construe a criminal statute to penalize conduct it does not clearly proscribe.' - Here, Kansas has acted
to circumvent Apprendi, based on the First Challenge, where David Ivory, presented a Poorly argued
claim, where Ivory challenged the horizantal Axis', and based on his failure to additionally argue the
mechanics of the axis, kansas has maintained it's sentencing Scheme for nearly 20 year.
"It is unconstitutional to remove from the jury the assessment of facts that alter the congressionally
prescribed range of penalties to which a criminal defendant is exposed." Jones, 526 U.S. at 253
(emphasis added). Thus, the Court appears to hold that any fact that increases or alters the range of
penalties to which a defendant is exposed - which, by definition, must include increases or alterations to
either the minimum or maximum penalties - must be proved to a jury beyond a reasonable doubt",
Apprendi v. New Jersey, 530 U.S. 466 at 533 (2000)
Kansas Statutes directtly remove the 'assessment of facts that alter the congressionally prescribed
range of penalties to which criminal defendant is exposed' - Kansas simply 'LABELS' the additional
facts as "PERSON CRIMES", while removing the necessary finding that these [ADDITIONAL
FACTS] - must be proved to a jury beyond a reasonable doubt - this would give effect to the courts
statement 'The dispositive question in determining whether a jury determination is necessary, is one not
of form, but of effect. If a state makes an increase in a defendant's authorized punishment contingent on
the finding of a feet, that fact, no matter how the state labels it, must be found by a jury beyond a
reason

able doubt. A defendant may not be exposed to a penalty exceeding the maximum he would

receive if punished according to the facts reflected in the jury verdict alone.' Ring v. Arizona, 536 U.S.
584 at 602 (2002) - Kansas as Stated has simply attached the label (PERSON FELONY) to the
Additional facts, which kansas has placed in the Unconstitutional Discreation of the Judge. - Stated
by this Court as Follows - Tor Apprendi purposes, the relevant statutory maximum is not the maximum
sentence a

judge may impose after finding additional facts, but the maximum he may impose without any

23

additional findings. When a judge inflicts punishment Oat the jury’s verdict alone does not allow, the jury
has

not found all the facts which the law makes essential to the punishment, and the judge exceeds his

proper authority.’ Blakely v. Washington, 542 U.S. 296, 303 - 304 (2004), - in essence, the Stateute of the
State of Kansas, specifically direct the Judge to Deliberitely 'exceeds his proper authority.',
Kansas can n

ot even adhear to it's own Case's on the Subject, in 2018, Kansas, again dealing with

Out-of-State Crimes, and this (PERSON) and (NONPERSON) classification, Stated -"the elements of
the out-of-state crime

cannot be broader than the elements of the Kansas crime. In other words, the

elements of the out-of-state crime must be identical to, or narrower than, the elements of the Kansas
crime to which it is being referenced." SEE: State v. Wetrich, 307 Kan. 552 (2018) - "That changed in
2018 when our Supreme Court decided Wetrich and held that "constitutional constraints would require
that, to be a comparable offense, a prior out-of-state crime must have identical or narrower elements
than the Kansas offense to which it is being compared." 307 Kan. at 557. - only in consideration of the
'identical or narrower elements' rule - this Allows the state to elevate the Out of State crane, mto a more
Serious Crime, as a means to increase the Penality for the Current Crime.
Where a Wyoming statute fails define 'Age', in order to sustain the Increased penalty, Kansas
compared

[Wyo. Stat Ann. § 14-3-105 (1978)] to Kansas [K.S.A. 21-3503.], where the Kansas Statute

does contain a

Specific Element of Age, and the Wyoming statute does not SEE: State v. Dubry, 309

Kan. 1229 (2019) - "Under the law at the time of Weber's sentencing, as he concedes, "[f]or purposes
of determining criminal history, the offenses need only be comparable, not identical." Vandervort, 276
Kan. at 179. In Murdock ITs wake, he cannot argue Wetrich makes his sentence, which was legal when
it was imposed, illegal. See State v. Newton, 309 Kan.

442 P.3d 489 ,2019 Kan. LEXIS 97 at *7

(No. 116,098, filed June 7,2019). SEE: State V. Weber,.442 P.3d 1044 (2019) - where Weber is entitled
to Existing law protections under Apprendi.

1
24

While it is not in Dispute that "A state is justified in punishing a recidivist more severely than it
punishes a first offender. The defendant's status, however, cannot be considered in the abstract" Solem v. Helm, 463 U.S. 277, and as in Helms, McGinn's status, however, cannot be considered
in the abstract. His prior offenses, although classified as felonies, were all relatively minor. All were
nonviolent and none was a crime against a person, simularly - the records reviewed by the State of
Kansas DID NOT state whether McGinn had been convicted under Subsection (a) or Subsection (b)
of the Colorado Statute.
The Trial judge took this determination upun himself to make this determination, clearly with Bias
intent How else can the Trial Judge justify the increaded Sentence from the (C) box of the Guidelines
grid, to the (B) box - As in Helm's though the Same Reasoning applies - 'An inmate's recidivist sentence
was disproportionate because the underlying crime was minor. He could have received the same
sentence for a much worse crime and in comparison to other states' sentencing laws, the sentence was
extremely severe.' - [Although the precise scope of this provision is uncertain, it at least incorporated
"the longstanding principle of English law that the punishment... should not be, by reason of its
excessive length or severity, greatly disproportionate to the offense charged.'.' R. Perry, Sources of Our
Liberties 236 (1959); see 4 W. Blackstone, Commentaries *16-* 19 (1769) (hereafter Blackstone); see
also id., at *16-* 17 (in condemning "punishments of unreasonable severity," uses "cruel" to mean severe
or excessive).]
Kansas in order to justify the increase in the underlying Sentence, made findings with no support m
the record, when comparing the underlying Colorado Offense
While the Court has Stated 'An inmate's sentence did not violate the constitutional prohibition against
cruel and unusual punishment because it was within the parameters of a state felony sentencing statute;
thus, the inmate's habeas corpus petition was dismissed.' - Hutto v. Davis, 454 U S. 370 , in such cases,
the state statues itself was constitutional, where in the present case, the Kansas Statute, removes the
requirements of Apprendi from the Jury, and leaves them in die discreation of the judge.
Therefore the State of Kansas, imposing the sentence, has violated the - due-process right of the

25

Petitioner in removing the right that a jury make the necessary findings to increase the underlying
sentence, father violating the Sixth Amendment which provides that in all criminal prosecutions, the
accused shall enjoy the right to a speedy and public trial, by an impartial jury. This right, in conjunction
with the Due Process Clause, requires that each element of a crime be proved to a jury beyond a
reasonable doubt. The Apprendi rule holds that any fact that exposes the defendant to a greater
punishment than that authorized by the jury’s guilty verdict is an element that must be submitted to a jury.
In the years since adoption of the Apprendi rule, it has been applied to instances involving plea bargains,
sentencing guidelines, criminal fines, mandatory minimums, and capital punishment.
In the Current case, Kansas [DID NOT] 'requires that each element of a crime be proved to a jury
beyond a reasonable doubt1, as the Record clearly reflects, these Findings as to the ’ELEMENTS' of
the 'OUT OF STATE' - COLORADO - crime of menicing were made by a judge from KANSAS, and
were not submitted to a jury.
Further the State of Kansas, has violated petitioners Fifth Amendment Rights - This Court has Stated
'The Sixth Amendment, together with the Fifth Amendment’s Due Process Clause, “requires that each
element of a crime” be either admitted by the defendant, or “proved to the jury beyond a reasonable
doubt” Alleyne v. United States, 570 U. S. 99, 104, 570 U.S. 99,133 S. Ct 2151,2154,186 L. Ed. 2d
314, 320 (2013). Any fact that increases the penalty to which a defendant is exposed constitutes an
element of a crime, Apprendi v. New Jersey, 530 U. S. 466,483, n. 10,490,120 S. Ct. 2348,147 L. Ed.
2d 435 (2000), and
127 S. a. 856,

“must be found by a jury, not a judge,” Cunningham v. California, 549 U. S. 270,281,

166 L. Ed. 2d 856 (2007). We have held that a substantively unreasonable penalty is

illegal and must be set aside. Gall v. United States, 552 U. S. 38, 51, 128 S. Ct. 586,169 L. Ed. 2d 445
(2007). It unavoidably follows that any fact necessary to prevent a sentence from being substantively
unreasonable—thereby exposing the defendant to the longer sentence-is an element that must be either
Ldmitted by the defendant or found by the jury. It may not be found by a judge.'
The Sixth Amendment's jury trial guarantee, made applicable to the States by the Fourteenth
Amendment, requires that the aggravating factor determination be entrusted to the jury. - in the Case

26

Presented, the 'aggravating factor determination' was preformed by a Judge, not a jury. - the State
appeals Court clearly Stated - "Although McGinn admits that he committed the crime of felony
menacing - Colo. Rev. Stat. § 18-3-206

it is unclear whether his conviction was under subsection (a)

or (b)." The Judge not a Jury made the Determination McGinn violated Subsection (b), Clearly this
Determination required Finding of an 'aggravating factor' - Colorado defines menacing as Follows:
18-3-206. Menacing
(1) A person commits the crime of menacing if, by any threat or physical action, he or she
knowingly places or attempts to place another person in fear of imminent serious bodily injury.
Menacing is a class 3 misdemeanor, but, it is a class 5 felony if committed:
(a) By the use of a deadly weapon or any-article used or fashioned in a manner to cause a
person to reasonably believe that the article is a deadly weapon, or
(b) By the person representing verbally or otherwise that he or she is aimed with a deadly
weapon.
Attached (APPENDIX

^)

This Court has held 'federal courts "shall entertain" habeas petitions from state prisoners who allege
that they are

"in custody in violation of the Constitution or laws or treaties of the United States"); Smith,

477 U.S. at 543 - 544 (1986) - See 28 U. S. C. § 2254(a).
This all falls directly from the language of the Statute of the State of Kansas, Which specifically
directs the State court judge to violate the Protections of Apprendi v. New Jersey, 530 U.S. 466,147
L. Ed. 2d 435,120 S. Ct 2348 (2000), and its progeny - Specifically Kan. Stst Ann. 21-6811
(APPENDIX I ) - Which directs the State trial judge

make these 'Findings of Additional Facts' -

which Kansas then 'LABELS' as [PERSON] crimes, and then based on this Judicial finding of
Additional Facts, the Judge, then pronounced an Increased Sentence. - accrodingly Petitioner is -

■1

"in custody in violation of the Constitution or laws or treaties of the United States" and the Petitioner is
accordingly entitled to Relief.
It is these type of cases where a sentence has been imposed in violation of the Constitution or laws

27

or treaties of the United States which contribute to the overcrowding of the prison system, and where
because of these types of Constitutional violations the lower federal courts would benifit from this court
Granting relief in this case.
Accordingly the Court should make a determination that the Statute of the State of kansas is
Unconstitutionally vague, and remand that Petitioner be properly sentenced 'without' the [PERSON]
felony classification's used to enhance his sentence, where the Factual 'ELEMENTS; of the prior
' Crimes'were not' properly determined by a jury, and Established beyond a reasonable doubt.
The Kansas Courts have clearly Stated "So a nonperson classification doesn’t implicate Apprendi
because the classification doesn't increase a defendant's sentence—it only shows the fact of a prior
conviction, as expressly permitted under Apprendi. 530 U.S. at 490. But changing the classification to
"person " will increase a defendant's sentence because crimes that cause physical or emotional harm to
another person are weighted more heavily in the sentencing guidelines. Buell, 2016 Kan. App. LEXIS 40,
slip op. at 7; Keel, 302 Kan. at 574-75; see K.S.A. 2015 Supp. 21-6804(a); K.S.A. 2015 Supp. 21-6809.
This also involves the state use of the TRIOR' in State Crimes, and Scoring thse crimes as
"PERSON" crimes, where a review of the State cases, will reveal that kansas is plagued with cases,
where the Appeals Court, and Kansas Supreme Court, have attempted review, decades old cases, and
where the Record is UNCLEAR' it simply looks at the Statute, and then TABELS’ the Offence, as a
[PERSON] crime in order to sustain the classification, and subsequently enhance the Offenders
sentence.
Where again, these FINDINGS OF ADDITIONAL FACTS' as also placed in the Determination of
a Judge, not a Judge, also violating the Constitutional Protections outlined above.
Accordingly, the State Statute should be also deemed unconstitutional, as applied to 'IN STATE prior
Crimes

, and this ruling would involve the Equal Protection Clause of the Fourteenth Amendment provides

that no State shall “deny to any person within its jurisdiction the equal protection of the laws.”, Simply
because a TRIOR CRIME' - was committed in another State, and not kansas, to allows such
parisions based on these factors would violate the Equal Protection Clause of the Fourteenth
com

28

amendment.
Respectfully the Court should grant the writ, remand for proper resentencing, and rule that kansas
Statute, is Unconstitutional according to Apprendi principles outlined herein.

CONCLUSION
Since 1796, American legislatures have enacted statutes enhancing punishment for repeat offenders.
As the 1980 case of Rummel v. Estelle, 445 U.S. 263 (1980), indicates, harsh penalties for recidivists are
not necessarily a thing of Europe's pre-Enlightenment past. In Rummel, the United States Supreme
Court upheld a life sentence imposed on an offender who, in three felonies committed over a period of
nine years, had enriched himself by a total of $ 229.11.
This type of punishment while legal, must be based on meeting the necessary Constitutional and/or
Statutory requirements, in the Current case, the increase is based 'NOT' on the TACT that McGinn
had a prior offense, but and Additional increase through the Kansas Statute through the LABEL of the
offense as a 'PERSON CRIME' or as the tenth Circuit Stated - Characterized as a "violend Felony' - a
characterization which, like kansas 'person' characterization of prior offenses, may affect the length
of Defendant's Sentence. SEE: Taylor v. United Sattes, 495 U.S. 575, 600, 110 S.Ct. 2143,109 L.Ed.2d
607 (1990).
thirteen years after Apprendi, in Alleyne v. United States, the Court was clear, when dealing with
these 'ELEMENTS' of'Seperate legal Offenses', The same Apprendi principles apply, Those
"ELEMENTS', the Court States - "Wh held that the Sixth Amendment provides the defendant with the right
to have a jury find those facts beyond a reasonable doubt." Id., at 484, 120 S.Ct. 2348, 147 L.Ed.2d 435 See: Alleyne V. United States, 570 U.S. 99 at 111 (2013).
Kansas Stat. Ann. § 21-6811 directly places the Determination of thse Trior offense [ELEMENTS]
directly in the determination of the Judge, not the Jury, Clearly in violation of the Fourteenth Amendmet's
Due

process Clause and the Sixth Amendments's Jury trial guarantee (as incorporated by the Fourteenth

Amendment) required the Satte to prove to the jury Beyond a reasonable Doubt.
Both involved prior (In State) Offenses, as well as (Out-Of-State) Offenses, and as m the Current case,

this determination is preformed based on an incomplete record, "It is unclear whether his conviction was
under Subsection (a) or (b)." State v. McGin, 2018 Kan. App. Unpub. LEXIS 551 (APPENDIX JL)
Accordingly the Court Should grant the Writ.
Respectfully Submitted this Ji day of;

^ 2019.

C3*

Carlon D. Mcginn
C/O: Lansing Corr. Facility
P.O. Box 2
Lansing, Kansas
66043

O

30

